                                      SOCIAL SECURITY

MEMORANDUM

Date:      September 20, 2002                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Impact on the Social Security Administration’s Programs When Auxiliary Beneficiaries
           Do Not Have Their Own Social Security Numbers (A-01-02-22006)


           Attached is a copy of our final report. Our objective was to determine the impact on the
           Social Security Administration’s programs when auxiliary beneficiaries do not have their
           own Social Security numbers on the Master Beneficiary Record.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on our recommendations. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                       James G. Huse, Jr.


           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  IMPACT ON THE SOCIAL SECURITY
 ADMINISTRATION’S PROGRAMS WHEN
  AUXILIARY BENEFICIARIES DO NOT
      HAVE THEIR OWN SOCIAL
        SECURITY NUMBERS


  September 2002   A-01-02-22006
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary
OBJECTIVE

Our objective was to determine the impact on the Social Security Administration’s
(SSA) programs when auxiliary beneficiaries do not have their own Social Security
numbers (SSN) on the Master Beneficiary Record (MBR).

BACKGROUND

Auxiliary beneficiaries are children, widows, spouses, and parents who receive
Old-Age, Survivors and Disability Insurance (OASDI) benefits based on another wage
earner’s Social Security record. As such, the primary wage earner's SSN¾not the
auxiliary beneficiary's SSN¾is used to track the auxiliary beneficiary's benefit payments
on the MBR. SSA commonly refers to the auxiliary beneficiary’s SSN as the
Beneficiary’s Own Account Number (BOAN).

In November 1988, Public Law (P.L.) 100-647 amended the Social Security Act to
require that, as of June 1, 1989, an individual must present satisfactory proof of an SSN
before receiving any Social Security benefits. To comply with this law, SSA established
the missing BOAN alert process to detect when an auxiliary beneficiary’s SSN is
missing on the MBR.

SSNs are used by many of SSA’s systems to control information about individuals. For
example, death reports, Supplemental Security Income (SSI) records, earnings records,
and prisoner information are associated with the SSNs of the individuals to whom the
information pertains. Because this information can affect an individual’s entitlement to
benefits, SSA routinely compares or matches this information to its payment files to
ensure payment accuracy.

RESULTS OF REVIEW

SSA's ability to ensure payment accuracy in both the OASDI and SSI programs is
impacted when auxiliary beneficiaries do not have their own SSNs on the primary wage
earner’s MBR. Specifically, our audit identified 126,471 auxiliary beneficiaries receiving
benefits as of August 2001 whose SSNs were missing from the MBR. Based on our
detailed testing of the 61,195 beneficiaries’ records for which we identified possible
SSNs, we identified approximately $8.91 million incorrectly paid because SSNs were
not on the MBR. Also, 10,264 of the 126,471 auxiliary beneficiaries in our audit
population (8 percent) became entitled to OASDI benefits after enactment of
P.L. 100-647.




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                           i
Additionally, we were unable to locate possible SSNs or analyze 52 percent of the
126,471 beneficiaries in our audit population. However, we expect the results for the
remaining 52 percent will show additional overpayments.

CONCLUSIONS AND RECOMMENDATIONS
It is critical that SSA take all feasible steps to ensure payment accuracy within its
programs—especially in light of The President’s Management Agenda for Fiscal Year
2002, which includes a goal to improve the Government’s financial performance
through the reduction of erroneous payments. Based on the overpayments identified
during our audit, we believe it would be cost-effective for SSA to add SSNs to all MBRs
for individuals currently receiving benefits—even if new SSNs have to be issued. We
recommend that SSA:

   §   Add the SSNs to the MBRs for the auxiliary beneficiaries currently receiving
       benefit payments.

   §   Modify its missing BOAN alert process to include auxiliary beneficiaries who
       became entitled to benefits prior to June 1989.

   §   Generate reports of auxiliary beneficiaries with missing BOAN alerts that have
       not been cleared timely to a higher level of management.

   §   Review the remaining 702 auxiliary beneficiaries identified by our earnings match
       to adjust their payments as needed.

AGENCY COMMENTS
In response to our draft report, SSA generally agreed with three of our four
recommendations. However, SSA did not agree with our second recommendation.
SSA stated that it is not required to obtain SSNs for auxiliary beneficiaries entitled
before June 1989, and that the issue can be addressed through additional policy
instructions to its staff. (See Appendix B for SSA's comments.)

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We believe our report demonstrates the need for SSA to modify its missing BOAN alert
process to include auxiliary beneficiaries who became entitled before June 1989, and
we urge SSA to implement our recommendation. We believe SSA will continue to
make improper payments to these individuals until their SSNs are placed on the MBR.




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                           ii
                                                                    Table of Contents
                                                                                                             Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................6

  Identification of Deceased Auxiliary Beneficiaries ................................................7

  Recognition of the OASDI Income of Concurrent Beneficiaries ...........................9

  Auxiliary Beneficiaries with Earnings that Impact Entitlement ............................10

  Auxiliary Beneficiaries in Prison..........................................................................11

  SSA Recognized Missing SSNs on MBRs Impaired its System Matches ..........12

  Auxiliary Beneficiaries Who Become Entitled to OASDI After May 1989 ...........13

  Additional Impact on SSA’s Programs................................................................13

CONCLUSIONS AND RECOMMENDATIONS .....................................................14

OTHER MATTERS ...............................................................................................16

APPENDICES

Appendix A – Sampling Methodology and Results

Appendix B – Agency Comments

Appendix C – OIG Contacts and Staff Acknowledgments




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)
                                                                 Acronyms
BOAN              Beneficiary’s Own Account Number
DACUS             Death Alert, Control, and Update System
DMF               Death Master File
EVS               Enumeration Verification System
FO                Field Office
MBR               Master Beneficiary Record
MEF               Master Earnings File
OASDI             Old-Age, Survivors and Disability Insurance
OIG               Office of the Inspector General
P.L.              Public Law
POMS              Program Operations Manual System
PUPS              Prisoner Update Processing System
SSA               Social Security Administration
SSI               Supplemental Security Income
SSN               Social Security Number
SSR               Supplemental Security Record
TOP               Treasury Offset Program




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)
                                                                          Introduction
OBJECTIVE

Our objective was to determine the impact on the Social Security Administration’s (SSA)
programs when auxiliary beneficiaries do not have their own Social Security numbers
(SSN) on the Master Beneficiary Record (MBR).

BACKGROUND

Auxiliary beneficiaries are children, widows, spouses, and parents who receive
Old-Age, Survivors and Disability Insurance (OASDI) benefits based on another wage
earner’s Social Security record. As such, the primary wage earner's SSN¾not the
auxiliary beneficiary's SSN¾is used to track the auxiliary beneficiary's benefit
payments. SSA commonly refers to the auxiliary beneficiary’s SSN as the Beneficiary’s
Own Account Number (BOAN) and maintains this information on the MBR.1 As of
December 2000, SSA paid benefits to over 45.4 million OASDI beneficiaries, and over
                                                                2
11.8 million of these individuals were auxiliary beneficiaries.

A January 1987 Office of the Inspector General (OIG) audit report found that auxiliary
beneficiaries without SSNs on the MBR impaired SSA’s ability to monitor payment
          3
accuracy. In November 1988, the Technical and Miscellaneous Revenue Act, Public
Law (P.L.) 100-647 was enacted. This Law amended the Social Security Act to require
that, as of June 1, 1989, an individual must present satisfactory proof of an SSN before
receiving any Social Security benefits.

To comply with P.L. 100-647, SSA established the missing BOAN alert process.
Bi-monthly, this process generates alerts to SSA field offices (FO) when the program
detects an auxiliary beneficiary—first entitled in June 1989 or later—whose SSN is
                      4
missing on the MBR. However, a March 1998 OIG report found that resolving BOAN
alerts was a low priority for FO managers among the many other duties assigned to
their offices.5


1
 A MBR consists of information related to a beneficiary’s entitlement to OASDI benefits (POMS, section
SM 00510.002).
2
    SSA report, 2001 Annual Statistical Supplement.
3
 Review of Payment to Auxiliary Beneficiaries Without Their Own Social Security Number
(A-13-86-62608), January 1987.
4
 POMS, section SM 00613.350, explains the missing BOAN alert process. Additionally, POMS, section
SM 00613.351, explains how to resolve a missing BOAN alert.
5
 Payment of Benefits to Individuals Who Do Not Have Their Own Social Security Number
(A-04-96-42000), March 1998.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                           1
The lack of an SSN will not prevent SSA from initiating a claim. In fact, SSA personnel
are instructed to process a claim as usual if the claimant does not have an SSN.6
However, if the beneficiary refuses to obtain an SSN, benefit payments should be
suspended.7

SSNs are used by many of SSA’s systems to control information about individuals.
When an SSN is missing, it can affect an individual’s entitlement to benefits. As a
result, SSA’s routine matches with its payment files will not always ensure payment
accuracy. For example, SSA uses the SSN to perform a variety of data matches both
within SSA and with other agencies. These matches assist the Agency in determining
the beneficiaries’ eligibility; and—to the extent that an SSN is missing—the value of
these matches is diminished. For purposes of this audit, we focused on the impact of
missing SSNs of auxiliary beneficiaries on the primary wage earner’s MBR with regard
to four such matches: death reports, Supplemental Security Income (SSI) records,
earnings records, and prisoner information.

Death
                                                                            8
An auxiliary beneficiary’s entitlement to benefits ends when he or she dies. To identify
deceased beneficiaries and prevent erroneous payments after death, SSA uses the
Death Alert, Control, and Update System (DACUS). DACUS receives death data from
external and internal sources and produces a national file of death information known
as the Death Master File (DMF). DACUS compares the SSNs of deceased individuals
to the SSNs of OASDI beneficiaries. When auxiliary beneficiaries’ SSNs are not
present on the wage earners’ MBR, DACUS will not detect that the deceased
individuals are beneficiaries whose payments should be terminated.

Concurrent Beneficiaries

Concurrent beneficiaries are individuals entitled to receive benefit payments under both
the OASDI and SSI programs. SSI is a needs-based program and eligibility is, in part,
dependent upon the amount of income available to the aged, blind or disabled
recipient. The OASDI payments received by concurrent beneficiaries are considered
income under the SSI program and recorded on the recipients’ Supplemental Security
Record (SSR). Concurrent beneficiaries’ records are tracked based on the individuals’
SSN. If an SSN of an auxiliary beneficiary does not also appear on the wage earner’s
MBR, SSA may not know that a beneficiary is concurrently receiving benefits.9 As a
result, the recipient’s SSI payments could be overpaid.


6
    POMS, section SM E00390.300.
7
    POMS, section RS 00203.032.
8
    As stated in 20 CFR §§ 404.316, 404.332, 404.337, 404.341, 404.352 and 404.371.
9
 The MBR and SSR interface daily to share information about concurrent beneficiaries (POMS, section
SM 02001.001).


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                        2
Auxiliary Beneficiaries With Earnings

Social Security benefits are intended to replace some of the earnings lost due to the
retirement, disability or death of a worker. For this reason, limitations are placed on the
amount of income a beneficiary is allowed to earn before his or her benefits are
reduced. When auxiliary beneficiaries work, their benefits—and benefits payable to
other beneficiaries on the same record—may be too high or too low.

To lessen the reporting burden on the public in 1997, SSA assumed the responsibility
of detecting the earnings of beneficiaries and adjusting their benefit payments as
needed. Therefore, most beneficiaries no longer report their earnings to SSA directly.10
Instead, SSA developed the Earnings Enforcement Operation to ensure that benefits
are paid correctly considering the beneficiaries’ earnings. SSA records the earnings
history of every individual in its Master Earnings File (MEF) under the individual’s
SSN.11 SSA also records on the MBR an estimate of the amount of future earnings a
beneficiary expects to receive. Estimated wages are intended to prevent
overpayments.12

The Earnings Enforcement Operation matches the earnings data, recorded on the
MBR, against the actual earnings recorded in the MEF under the individual’s SSN. The
system identifies both underpayment and overpayment situations that result from the
match. When auxiliary beneficiaries have reported earnings under their SSNs—but
those SSNs do not appear on the MBR—the Earnings Enforcement Operation will not
detect that working individuals are beneficiaries. As a result, SSA may not know when
benefit payments should be adjusted.

Prisoners

The Social Security Act prohibits OASDI payments to beneficiaries who have been
                                                  13
convicted and confined for more than 30 days. SSA receives prisoner data from
correctional facilities and processes it through the Prisoner Update Processing System
                                                           14
(PUPS). Since PUPS uses SSNs to identify prisoners, the system will not identify an
auxiliary beneficiary who is in prison, if the beneficiary's SSN is not on the wage
earner’s MBR. Therefore, SSA FOs will not be alerted to investigate these cases to
determine whether benefit payments should be stopped.



10
  This does not apply to disabled auxiliary beneficiaries. Individuals who receive auxiliary benefits based
on their disabilities are required to report their earnings to SSA.
11
     POMS, section RM 03870.001.
12
     POMS, section RS 02510.005.
13
     Social Security Act § 202(x)(1)(A)(i).
14
     POMS, section GN 02607.003.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                                3
SCOPE AND METHODOLOGY
To accomplish our objective, we:

§     Reviewed applicable sections of the Social Security Act and SSA’s regulations,
      rules, policies, and procedures.

§     Tested SSA’s internal controls by assessing SSA’s policies and procedures, as well
      as by analyzing a sample of cases.

§     Identified, through data analysis, 126,471 auxiliary beneficiaries without a BOAN on
      the wage earner’s MBR who were receiving OASDI benefits as of August 2001, and
      their own SSNs did not appear on benefit records. Using SSA's Enumeration
      Verification System (EVS), the names and dates of birth of these 126,471 auxiliary
      beneficiaries were compared to SSA’s Numident File15 to locate possible SSNs.
      EVS identified possible SSNs for 61,195 of the auxiliary beneficiaries.16 (See
      Appendix A for additional information.)

§     Obtained from SSA the DMF as of June 2001 and PUPS as of October 2001. We
      tested the reliability of key fields in these data files to ensure the accuracy of the
      data critical to our audit.

§     Matched the 61,195 SSNs identified by EVS against the DMF and PUPS. We also
      matched the SSNs against the MEF and SSR as of November 2001. These
      matches identified the following:

      è 391 SSNs with dates of death on the DMF;
      è 152 SSNs in which the beneficiary received both OASDI and SSI payments
        concurrently after 1990;
      è 802 SSNs under which earnings were posted to the MEF between 1996 and
        2000; and
                                               17
      è 62 SSNs with prisoner records in PUPS.

§     Calculated the dollar impact on beneficiaries’ payments for each of the DMF, SSI
      and PUPS cases, and for a random sample of 100 earnings cases. (See
      Appendix A for our sampling methodology.)




15
  The Numident File contains identifying information (such as name, date of birth, date of death, etc.) for
each individual issued an SSN.
16
     We were unable to find possible SSNs for the remaining 65,276 auxiliary beneficiaries.
17
  Our audit focused on these four areas; however, auxiliary beneficiaries without SSNs on the MBR could
also impact other areas.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                                4
§     Referred cases to the appropriate SSA FO to:

      1. Determine whether the SSNs identified by EVS were accurate for the auxiliary
         beneficiaries; and

      2. Confirm whether the beneficiaries' payments—and payments to other
         beneficiaries on the same MBR—were affected by the information identified
                           18
         during our audit.

§     Communicated with SSA’s Office of Systems personnel to determine the work they
      performed and have planned to address auxiliary beneficiaries without SSNs.

We performed our audit in Boston, Massachusetts, between January and May 2002.
The entities audited were SSA’s FOs under the Deputy Commissioner for Operations
and the Office of Systems Design and Development under the Deputy Commissioner
for Systems. We conducted our audit in accordance with generally accepted
government auditing standards.




18
     Cases suspected to involve fraud were referred to the OIG’s Office of Investigations.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                               5
                                                          Results of Review
SSA's ability to ensure payment accuracy in both the OASDI and SSI programs is
impacted when auxiliary beneficiaries do not have their own SSNs on the primary wage
earner’s MBR. For SSA's systems to work effectively, an auxiliary beneficiary's SSN
should be on the MBR to determine whether benefit payments should be adjusted due
to:

     §      death,
     §      concurrent SSI payments,
     §      earnings, or
                          19
     §      imprisonment.

During our audit, we identified approximately $8.91 million that was incorrectly paid
because the auxiliary beneficiaries’ SSNs were not on the MBR.20 This $8.91 million
consists of the following:

§    $5.18 million in OASDI benefits incorrectly paid due to the deaths of auxiliary
     beneficiaries;

§    $1.17 million in incorrect SSI payments because the auxiliary beneficiaries' OASDI
     benefits were not recognized as income when their SSI payments were calculated;

§    an estimated $2.48 million in OASDI benefits incorrectly paid because the auxiliary
     beneficiaries' earnings were not considered in determining their OASDI benefit
     amount; and

§    $76,424 in OASDI benefits incorrectly paid due to the imprisonment of auxiliary
     beneficiaries.




19
  Other situations, such as marriage, may also impact an auxiliary beneficiary's benefit payments.
However, our audit focused on these four areas.
20
  Although we did not perform any tests on the 65,276 auxiliary beneficiaries for whom we could not find
SSNs, it is likely OASDI and/or SSI payments were also incorrectly paid to these beneficiaries.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                             6
IDENTIFICATION OF DECEASED AUXILIARY BENEFICIARIES
SSA matches information on
the MBR with death information                    Results of Death Cases
to identify incorrect benefit
payments. Therefore, SSA’s             No Improper
                                                                                Improper
ability to identify deceased            Payments
                                                                             Payments Due
                                           53%
auxiliary beneficiaries and                                                    to Missing
                                                                                 SSNs
terminate benefits in a timely                                                    46%
fashion is diminished when the
auxiliary beneficiaries' SSNs do                                   Still Being
not appear on the MBR. Of the                                       Worked
61,195 auxiliary beneficiaries                                          1%

for which we were able to find
possible SSNs, 391 had dates of death recorded on SSA’s DMF.

Of the 391 cases in our population:

§     The missing SSNs prevented SSA from identifying 181 deceased beneficiaries,
      resulting in $5.18 million in incorrect payments (46 percent).21

§     The missing SSNs did not impact benefit payments for 205 cases (53 percent).

§     The impact of the missing SSNs has not been determined for five cases because
      SSA continues to investigate whether the auxiliary beneficiaries are deceased
      (1 percent).

Auxiliary Beneficiaries Incorrectly Paid After Death

The 181 deceased auxiliary beneficiaries, whose undiscovered deaths resulted in
$5.18 million in incorrect payments, include:

§     173 auxiliary beneficiaries whose benefits have now been terminated due to death;
      and

§     8 auxiliary beneficiaries who are presumed dead and whose benefits have been
      suspended.

For 173 cases in our population, the auxiliary beneficiaries died, and SSA subsequently
posted the death information to the DMF. On average, SSA learned of the deaths
92 days after the individuals died. However, because the beneficiaries’ SSNs did not
appear on the MBR, DACUS did not identify the deceased individuals as auxiliary
beneficiaries. Consequently, SSA continued paying benefits for an average period of
38 months after the individuals died, resulting in incorrect payments of over

21
     As of August 14, 2002, SSA successfully recovered $1,272,152 of this $5.18 million.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                              7
$4.77 million. Had the SSNs been on the MBR, the deceased individuals would have
been identified as beneficiaries through DACUS, and benefits would have been
terminated in a more timely manner.

SSA's failure to terminate the benefits of two of these deceased auxiliary beneficiaries
not only caused incorrect payments to the deceased auxiliary beneficiary, but to other
beneficiaries as well. A total of $100,727 was incorrectly paid to other auxiliary
beneficiaries who were no longer entitled to benefits once the deceased auxiliary
beneficiary died. The following is an example.

     A disabled adult child died in July 1991 but SSA continued to pay benefits until
     March 2002, even though the death was recorded on the DMF in January 1992.
     The termination of benefit payments to the deceased auxiliary beneficiary effective
     July 1991 also caused the mother's eligibility for benefit payments to end. In
     addition to the $94,876 incorrectly paid on the deceased beneficiary’s behalf,
     $84,080 was incorrectly paid to the mother.

SSA has suspended benefit payments to an additional eight auxiliary beneficiaries
based on allegations of death on the DMF and the inability of the FO to contact the
beneficiaries. At least 1 month had elapsed since these benefits were suspended and
the auxiliary beneficiaries had not contacted SSA regarding the suspension of their
benefit payments. If the deaths on the DMF prove correct for these beneficiaries, SSA
must attempt to recover an additional $404,317.

Missing SSNs Without Incorrect Payments

For 205 cases, the missing SSNs did not result in incorrect payments. Specifically,

     §   4 auxiliary beneficiaries were deceased, but the dates of death on the DMF were
                    22
         incorrect;

     §   44 auxiliary beneficiaries were alive at the time of our review, but the DMF
         contained incorrect death information;23 and

     §   the SSNs obtained through EVS proved incorrect for 157 auxiliary
         beneficiaries.24
22
    Although these beneficiaries are deceased, their deaths occurred after the dates reported on the DMF.
If the SSNs were on the MBR, DACUS would have alerted SSA to the deaths that were posted to the
DMF. However, because these dates were erroneous, SSA would have determined that the beneficiaries
were alive and benefits would have continued.
23
  SSA convened a workgroup, which met in December 2001 and March 2002, to address inaccuracies in
the DMF. SSA is currently implementing strategies to improve the accuracy of the DMF.
24
   EVS is an electronic means of verifying the SSN, name, date of birth, and/or sex of an individual. EVS
can also be used to find possible SSNs when an SSN is unknown. However, possible SSNs obtained
from EVS are considered to be unverified and must be reviewed by FO employees to ensure they are
accurate.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                              8
As of September 6, 2002, SSA had added the SSNs to the MBR for 49 of the 197 living
auxiliary beneficiaries in our population. Therefore, when these beneficiaries die and
their deaths are recorded in the DMF, these 49 cases should be identified through
SSA’s normal death matching operation.

RECOGNITION OF THE OASDI INCOME OF CONCURRENT
BENEFICIARIES

SSA’s ability to recognize
OASDI benefit payments as                    Results of Concurrent Cases
income on the SSR is reduced
when auxiliary beneficiaries
do not have SSNs on the                 No Improper                        Improper
                                         Payments                          Payments
MBR. Since the SSI program                                                   Due to
                                            65%
is based on need, a                                                      Missing SSNs
concurrent beneficiary’s                                                      35%
OASDI benefits could reduce
the amount of SSI payments
the individual is eligible to
receive. Of the
61,195 auxiliary beneficiaries
for whom we were able to find possible SSNs, we identified 152 auxiliary beneficiaries
who may have received SSI payments while also receiving OASDI benefits.

Of the 152 cases identified, we determined that:

§    53 cases (35 percent) incorrectly received $1.17 million in SSI payments because
                                                                        25
     their OASDI benefits were not recognized as income on the SSRs. For example, a
     concurrent beneficiary from New Jersey was improperly paid $15,708 in SSI
     payments between November 1998 and March 2002 because SSA did not
     recognize the OASDI income she was receiving as an auxiliary beneficiary. Based
     on our work, SSA added the auxiliary beneficiary's SSN to the MBR in April 2002.
     As a result, the system now recognizes the OASDI income when calculating her SSI
     payment amount.

§    99 cases (65 percent) were unaffected by the missing SSNs. This included:

     è   76 cases in which the SSNs found by EVS proved incorrect.

     è   23 cases that had their OASDI benefits correctly recorded on their SSRs as
         income, even though the auxiliary beneficiaries’ SSNs were not on the MBR.

25
  As a result of Administrative Finality, SSA may be unable to recover $723,396 of the $1.17 million in
improper SSI payments. According to SSA’s Administrative Finality policy, “A determination or decision by
the Agency becomes final and binding when rendered and may only be later reopened or revised under
special conditions.” The time period SSA can assess an overpayment to an SSI recipient is limited to
24 months for good cause (POMS, sections SI 04070.001 and SI 04070.010).


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                         9
         However, we identified $6,269 in SSI payments improperly paid to 10 of these
         concurrent beneficiaries because their OASDI income was not recognized timely.

AUXILIARY BENEFICIARIES WITH EARNINGS THAT IMPACT
ENTITLEMENT
SSA’s ability to identify auxiliary beneficiaries with earnings that impact their entitlement
to benefits is diminished when the auxiliary beneficiaries’ SSNs do not appear on the
MBR. Of the 61,195 auxiliary beneficiaries for which we were able to find possible
SSNs, 802 had reported earnings between 1996 and 2000, which may have impacted
their entitlement to benefits. We randomly selected 100 of the 802 cases for review.
Projecting the results of our sample, we estimate that 297 auxiliary beneficiaries had
earnings that would result in approximately $2.34 million in overpayments. Further, we
estimate that approximately 56 auxiliary beneficiaries have earnings that would result in
                                                26
approximately $143,597 in underpayments.

Of the 100 cases in our sample:

     §   the earnings on the MEF impacted the benefits payable to auxiliary beneficiaries
         for 44 records;

     §   the earnings on the MEF did not impact the benefits payable to auxiliary
         beneficiaries for 48 records; and

     §   the impact of the earnings on benefits payable to auxiliary beneficiaries (if any)
         has not yet been determined for 8 records still being reviewed by SSA.

Earnings Impact Benefits Payable to Auxiliary Beneficiaries

For 44 cases in our sample, the earnings reported on the MEF impacted the benefits
payable to the auxiliary beneficiaries. Because the earnings were not recorded on the
MBR, SSA did not recognize $291,900 in overpayments that should be recovered and
$17,905 in underpayments that should be paid.

The following are examples of incorrect payments that resulted from the auxiliary
beneficiaries' SSNs not appearing on their MBRs.

     §   An auxiliary beneficiary was entitled to spouse's benefits since November 1997.
         Because his SSN did not appear on the MBR, the Earnings Enforcement
         Operation did not identify the working auxiliary beneficiary. As a result, SSA did
         not recognize that $2,686 was incorrectly paid to this beneficiary and should be
         recovered.


26
  The $2.34 million in overpayments plus the $143,597 in underpayments totals the $2.48 million in
incorrect payments as shown on page 6 of this report.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                       10
     §   A woman was entitled to auxiliary benefits as a mother with a child-in-care on the
         record of her deceased husband. Benefits were not paid to her in 1999 and
         2000 based on her estimated earnings recorded on the MBR. However, her
         earnings record indicated that her actual earnings during this period did not
         exceed the amounts allowed under the OASDI program. As a result, she was
         entitled to OASDI benefits. Because her SSN did not appear on her deceased
         husband’s MBR, the Earnings Enforcement Operation did not identify the
         working auxiliary beneficiary. As a result, SSA did not recognize the $8,638 of
         additional OASDI benefits owed to this beneficiary.

Earnings Did Not Impact Benefits Payable

For 48 cases, the earnings reported on the MEF did not impact benefit entitlement for
various reasons. For example, the earnings of 22 auxiliary beneficiaries were allowable
under the rules of entitlement to OASDI benefits; and for 4 additional beneficiaries, the
SSNs found by EVS proved incorrect.

AUXILIARY BENEFICIARIES IN PRISON
SSA’s ability to suspend OASDI payments to imprisoned auxiliary beneficiaries is
impaired when their SSNs are not on the wage earners’ MBR. Of the 61,195 auxiliary
beneficiaries for whom we were able to find possible SSNs, we identified 62 individuals
who had incarceration dates listed in PUPS.

Of the 62 cases identified, we determined that:

§    8 auxiliary beneficiaries were not due some of the OASDI benefits paid to them
     because of their incarceration. Specifically, these 8 auxiliary beneficiaries received
     $76,424 in OASDI benefits improperly while incarcerated as of March 2002.27
     SSA’s routine matching of PUPS was ineffective in stopping the OASDI benefit
     payments to these individuals because their SSNs were not present on the MBR.

§    54 auxiliary beneficiaries’ payments were correctly calculated despite the missing
     SSNs on the MBR. This included:

     è   50 cases in which the auxiliary beneficiaries were incarcerated but did not meet
         OASDI benefit suspension requirements. As a result, OASDI payments to these
         beneficiaries continued appropriately.

     è   2 cases in which SSA had erroneous prisoner information.

     è   2 cases in which the SSNs found by EVS proved incorrect.



27
  For 6 of these 8 cases, the PUPS alert and the improper OASDI payment amount have been confirmed.
For the remaining 2 cases, we are awaiting OI and FO confirmation respectively.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                  11
SSA RECOGNIZED MISSING SSNs ON MBRs IMPAIRED ITS SYSTEM
MATCHES
SSA has a program that generates alerts on a bi-monthly basis to “…FOs when the
program detects an auxiliary or survivor beneficiary first entitled 6/89 or later, whose
BOAN is either unverified or missing on the MBR.”28 The alerts will continue to be sent
to the FOs until the SSNs are verified or added to the MBR.

At the time we started our audit, SSA’s Office of Systems was studying the feasibility of
using EVS to identify and place the SSNs for auxiliary beneficiaries on the MBR.
However, our initial audit work showed the SSNs identified by EVS were not always
correct, but actually belonged to other individuals with similar names. Therefore, SSA
suspended its study until our audit was completed.

Based on our analysis, 237 of 705 SSNs (33 percent) identified by EVS were not the
actual SSNs for the auxiliary beneficiaries. If the incorrect SSNs identified by EVS had
been placed on the auxiliary beneficiaries’ records, this could have caused significant
problems. Specifically, the auxiliary beneficiaries’ payments could have been
improperly terminated through SSA’s routine data matches for death, prison, earnings,
etc.

For example, EVS identified an SSN for an auxiliary beneficiary in our deceased
population. This SSN had a date of death of April 15, 1988 on the DMF. Upon our
request, the servicing FO performed an investigation to determine whether the SSN
identified for this auxiliary beneficiary was correct. The FO determined that the SSN
identified by EVS for this beneficiary was incorrect. Furthermore, the FO confirmed that
the auxiliary beneficiary was alive and placed her correct SSN on the MBR. If SSA
relied on the validity of the SSN provided by EVS for this auxiliary beneficiary without
verifying it, her benefit payments may have been terminated incorrectly. Therefore,
SSA should verify SSNs identified through EVS prior to placing those SSNs on the
MBR.

In January 2002, we obtained an updated extract of auxiliary beneficiaries without
SSNs that were receiving benefits. By comparing our original August 2001 extract with
the January 2002 extract, we determined that SSA had added SSNs to 4,054 auxiliary
beneficiaries’ MBRs. Additionally, SSA issued policy instructions on May 13, 2002
regarding the need to enter an auxiliary beneficiary’s SSN on the MBR if it is not
already on the record.




28
     POMS, section SM 00613.350.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                         12
AUXILIARY BENEFICIARIES WHO
                                                                               Auxiliary
BECAME ENTITLED TO OASDI                                                   Beneficiaries in
AFTER MAY 1989                                                            Audit Population
                                                                          Entitled to OASDI
As stated earlier, P. L. 100-647 requires                   Year            Benefits After
individuals to present satisfactory proof of                                  May 1989
their SSNs before receiving any Social
Security benefits.                                       1989                      278
                                                         1990                      508
The table to the right shows that 10,264 of              1991                      529
126,471 auxiliary beneficiaries in our audit             1992                      630
population were initially entitled to OASDI              1993                      591
benefits after May 1989. For example,                    1994                      655
1,300 of the auxiliary beneficiaries who                 1995                      677
were first entitled to benefits in 1998 did              1996                      756
not have SSNs on their records.                          1997                      999
                                                         1998                    1,300
However, SSA FOs should have been                        1999                    1,306
notified of these cases through SSA’s                    2000                    1,298
“BOAN missing alert process.” The fact            Through August 2001              737
that these cases did not have SSNs                       Total                  10,264
indicates that this workload remained a
low priority for SSA.

ADDITIONAL IMPACT ON SSA’s PROGRAMS
As stated earlier, of the 126,471 auxiliary beneficiaries identified, we were unable to
locate possible SSNs for 65,276 individuals (52 percent). As a result, all of the analysis
and findings discussed in our report are based on 48 percent of our population—the
61,195 beneficiaries for whom we identified possible SSNs. Without possible SSNs, we
could not perform additional testing for the remaining 52 percent of our population.
However, we expect that if SSA adds SSNs to these cases and conducts a similar
analysis, the results for the remaining 52 percent will show additional overpayments.

This is especially likely since 51,540 of these 65,276 beneficiaries (79 percent) were
age 65 or older. These individuals will most likely continue to receive benefits until their
deaths. However, SSA may not be able to identify and terminate their benefit payments
when these individuals die if their SSNs are not on the MBR.

Many of the 61,195 beneficiaries we analyzed had SSNs already, but those SSNs were
not recorded on the MBR. Conversely, most of the 65,276 beneficiaries for whom we
could not identify possible SSNs may have never received SSNs since they were not
required to receive benefits prior to June 1989.




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                           13
                                                           Conclusions and
                                                          Recommendations
It is critical that SSA take all feasible steps to ensure payment accuracy within its
programs—especially in light of The President’s Management Agenda for Fiscal Year
2002,29 which includes a goal to improve the Government’s financial performance
through the reduction of erroneous payments. Based on the overpayments identified
during our audit, we believe it would be cost-effective for SSA to add SSNs to all MBRs
for individuals currently receiving benefits—even if new SSNs have to be issued.

Therefore, we recommend that SSA:

1. Add the SSNs to the MBR records of all auxiliary beneficiaries currently receiving
   benefit payments.

2. Modify its missing BOAN alert process to include auxiliary beneficiaries who became
   entitled to benefits prior to June 1989.

3. Generate reports of auxiliary beneficiaries with missing BOAN alerts that have not
   been cleared timely to a higher level of management.

4. Review the remaining 702 auxiliary beneficiaries identified by our earnings match to
   adjust their payments as needed.

AGENCY COMMENTS
In response to our draft report, SSA generally agreed with three of our four
recommendations. However, SSA did not agree with our second recommendation.
Specifically, while SSA agreed that the addition of missing SSNs for auxiliary
beneficiaries will facilitate SSA’s matching process and reduce erroneous payments,
the Agency did not agree to modify its missing BOAN alert process. SSA stated that it
is not required to obtain SSNs for individuals entitled before June 1989 and it believes
the issue can be addressed through additional policy instructions to its staff.
(See Appendix B for SSA's comments.)

OIG RESPONSE
We believe our report demonstrates the need for SSA to modify its missing BOAN alert
process to include auxiliary beneficiaries who became entitled before June 1989, and
we urge SSA to implement our recommendation. We believe SSA will continue to
make improper payments to these individuals until SSNs are added to the MBR. To
ensure that SSNs are added to these records, SSA should issue missing BOAN alerts.

29
     Published by the Executive Office of the President, Office of Management and Budget (see page 19).


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                            14
By modifying the alert process, FO staff would be notified of the need to either
(1) locate the correct SSN and add it to the MBR or (2) issue a new SSN if the
individual did not already have an SSN.




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                     15
                                                                     Other Matters
MISSING SSNs IMPACT DEBT RECOVERY

The Debt Collection Improvement Act of 1996, P.L. 104-134, requires Federal
agencies—such as SSA—to offset Federal payments to collect delinquent non-tax
debts owed to the Government. Specifically, the objectives of P.L. 104-134 are to

     §   maximize collections of delinquent debts owed to the Government, and
     §   reduce losses arising from inadequate debt management activities.

The Treasury Offset Program (TOP) is a Government-wide delinquent debt matching
and payment offset system run by the Department of the Treasury. It enables Treasury
to recover an individual’s delinquent Federal debt, such as SSI or OASDI
overpayments, by offsetting any Federal payment due that individual. When TOP
identifies a payment about to be sent to a debtor, Treasury reduces or withholds the
payment and sends it to the agency owed the debt. TOP permits SSA to recover
delinquent debts owed it by offsetting an individual’s tax refund or other Federal
payments. Through Fiscal Year 2000, TOP yielded $394 million in debt collections for
SSA.30 Further, other Federal agencies may recover debts owed them by offsetting an
individual’s OASDI benefits. This Benefit Payment Offset program is expected to
enable Treasury to recover an estimated $40 to $60 million in delinquent debt from
about 400,000 OASDI beneficiaries.

                           The TOP process is based on computer matching. It uses the
Debt Collection
                           taxpayer identification number to match the debtor and payee
Tools Rely on the
                           records. The taxpayer identification number is the same as the
SSN
                           individual's own SSN. Because TOP relies on the individual's
                           SSN, SSA’s ability to meet the objectives of P.L. 104-134 is
hindered when auxiliary beneficiaries do not have their SSNs on their benefit records.
For auxiliary beneficiaries whose benefits have stopped and who owe past-due debts to
SSA, the Agency would be unable to collect the debts from other Federal payments
made to the debtors (for example, Federal income tax refunds) if the individuals’ SSNs
                                         31
do not appear on the benefit records. For auxiliary beneficiaries who are currently
receiving OASDI benefits and who owe past-due debts to other Federal agencies,
Treasury would not be able to offset the beneficiaries’ OASDI benefits to recover the
debts if the individuals’ SSNs do not appear on the benefit records.



30
  This includes debt collections that resulted from TOP’s predecessor – the Tax Refund Offset program
managed by the Internal Revenue Service (SSA, Performance and Accountability Report for Fiscal
Year 2000).
31
  We have initiated work to assess the cost-benefit of identifying and placing SSNs on terminated or
suspended MBRs that contain overpayments.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                         16
Our audit involved individuals who are currently receiving auxiliary benefits and whose
SSNs do not appear on the benefit records. It is possible that these beneficiaries owe
past-due debts to other Federal agencies. Because the individuals’ SSNs do not
appear on benefit records, these agencies are not afforded the opportunity to recover
the debts owed them by withholding from the debtors’ OASDI benefits. Further, we did
not include in our audit auxiliary beneficiaries who are missing SSNs but whose benefits
have stopped. It is possible that these beneficiaries owe past-due debts to SSA, but
SSA is unable to recover the debts from payments made to the debtors by other
Federal agencies.

We believe SSA could better meet the objectives of the Debt Collection Improvement
Act by ensuring that SSNs appear on the records of all non-terminated auxiliary
beneficiaries and on the records of terminated beneficiaries who owe past-due debts to
SSA. By ensuring the SSNs appear on the records of auxiliary beneficiaries who are
currently receiving OASDI benefits, other Federal agencies would have more
opportunities to recover delinquent debt owed them. Further, by ensuring that SSNs
appear on the records of terminated auxiliary beneficiaries who owe past-due debts to
SSA, the Agency would increase its chances of recovering these debts because
Treasury would be able to offset other Federal payments made to these debtors.

UNREPORTED MARRIAGE

We obtained files containing marriage information from four States (Georgia, Kansas,
Oregon and Vermont). Of the 61,195 cases in which EVS identified an SSN, 29 were
reported by these States to have married. Out of the 29 cases, we found

§   the marriage of 28 of the auxiliary beneficiaries did not terminate the beneficiaries'
    entitlement to benefits, and

§   the marriage for 1 of the auxiliary beneficiaries did cause the beneficiary's
    entitlement to OASDI benefits to terminate. Specifically, the auxiliary
    beneficiary¾who was receiving both a disability benefit based on her own earnings
    and a Disabled Adult Child benefit based on her father's earnings¾married in
    March 1997. Her marriage caused her entitlement to Disabled Adult Child benefits
    to terminate as of March 1997. When the beneficiary reported her marriage, SSA
    changed her name on her own disability claim to reflect her new married name, but
    failed to terminate the benefits being paid as a Disabled Adult Child. Because SSA
    did not terminate her benefits until we alerted the FO of the case, the beneficiary
    received $24,927 in OASDI benefits that she was not due.

Although we only identified one overpaid case by matching missing SSN cases against
these four States' marriage files, as SSA expands its access to marriage files,
additional improper payments will only be identified if these auxiliary beneficiaries’
SSNs are added to the MBR.




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                               17
                                                Appendices




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)
                                                                                   Appendix A
Sampling Methodology and Results
We obtained from the Social Security Administration (SSA) a data file of 4.6 million
Old-Age, Survivors and Disability Insurance auxiliary beneficiary records without SSNs
listed on the primary wage earner’s record. Based on our data analysis, 126,471 of
these auxiliary beneficiaries were receiving benefits as of August 2001. We processed
                                                                              1
these 126,471 cases through SSA’s Enumeration Verification System (EVS) and
identified possible Social Security numbers for 61,195 of these auxiliary beneficiaries.
We compared the 61,195 SSNs identified by EVS to the Master Earnings File (MEF)
and identified 802 auxiliary beneficiaries whose earnings may have impacted the
benefits paid.

                             Sample Results and Projections
Population size                                                                                  802
Sample size                                                                                      100
                                    Part I: Underpayments
                                      Attribute Projections
Number of cases in which the auxiliary beneficiary's earnings                                       7
caused underpayments to be due beneficiaries
Point estimate of cases in the population:                                                        56
    Projection lower limit                                                                        28
    Projection upper limit                                                                       100
                                       Dollar Projections
Benefits underpaid in the sample cases as a result of the auxiliary                         $17,905
beneficiaries' earnings not being posted to the records
Point estimate of benefits underpaid in the population                                    $143,597
    Projection lower limit                                                                  $19,382
    Projection upper limit                                                                $267,813
    Note: All projections were calculated at the 90-percent confidence level.




1
 EVS is an electronic means of verifying the SSN, name, date of birth, and/or sex of an individual. EVS
can also be used to identify possible SSNs when an SSN is unknown.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                          A-1
                                    Part II: Overpayments
                                     Attribute Projections
Number of cases in which the auxiliary beneficiary's earnings                      37
caused overpayments
Point estimate of cases in the population.                                        297
   Projection lower limit                                                         235
   Projection upper limit                                                         362
                                      Dollar Projections
Benefits overpaid in the sample cases as a result of the auxiliary           $291,900
beneficiaries' earnings not being posted to the records
Point estimate of benefits overpaid in the population                       $2,341,036
   Projection lower limit                                                   $1,269,350
   Projection upper limit                                                   $3,412,721
   Note: All projects were calculated at the 90-percent confidence level.




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                           A-2
                                                                 Appendix B
Agency Comments




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 9, 2002                                                 Refer To:   S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry Dye /s/
            Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Impact on the Social Security
           Administration’s Programs When Auxiliary Beneficiaries Do Not Have Their Own
           Social Security Numbers” (A-01-02-22006)—INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report
           content and recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Dan Sweeney on extension 51957.

           Attachment:
           SSA Response




           Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                         B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“IMPACT ON THE SOCIAL SECURITY ADMINISTRATION’S PROGRAMS WHEN
AUXILIARY BENEFICIARIES DO NOT HAVE THEIR OWN SOCIAL SECURITY
NUMBERS” (A-01-02-22006)

Recommendation 1

Add the Social Security numbers (SSN) to the Master Beneficiary Record (MBR) records of all
auxiliary beneficiaries currently receiving benefit payments.


Comment

We agree that the addition of missing SSNs for auxiliary beneficiaries will facilitate the Social
Security Administration’s (SSA) matching processes and reduce erroneous payments. As OIG
indicates in the draft report, we issued policy instructions on May 13, 2002 regarding the need to
enter an auxiliary beneficiary's SSN on the MBR if it is not already on the record. We will issue
additional instructions before the end of the fiscal year to all offices emphasizing the importance
of processing the Beneficiary’s Own Account Number (BOAN) alerts and of adherence to the
policy instructions for verifying and entering SSNs for auxiliary beneficiaries.

Recommendation 2

Modify the missing BOAN alert process to include auxiliary beneficiaries who became entitled
to benefits prior to June 1989.


Comment

We disagree, as SSA is not required by statute to require an SSN for auxiliaries entitled before
June 1989. However, we have addressed, as indicated above, the need for SSA staff to make
every effort to ascertain, verify and post missing BOANs, including those for auxiliary
beneficiaries entitled before June 1989.

Recommendation 3

Generate reports of auxiliary beneficiaries with missing BOAN alerts that have not been cleared
timely to a higher level of management.


Comment

We agree, but the reports will require systems programming. We will develop an Information
Technology Template for submission during the next cycle (scheduled for October -
November 2002) that will allow us to track the volume of missing BOAN alerts by region and
field office.


Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                  B-2
Recommendation 4

Review the remaining 702 auxiliary beneficiaries identified by our earnings match to adjust their
payments as needed.


Comment

We agree. We will obtain the SSNs from OIG and refer the actions to the processing centers for
necessary action. We expect to complete the cases during FY 2003.




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)                                B-3
                                                                        Appendix C
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

   Judith Oliveira, Deputy Director, (617) 565-1765

Staff Acknowledgments

In addition to those named above:

   Jeffrey Brown, Auditor

   Kevin Joyce, Auditor

   Joseph LoVecchio, Auditor

   David Mazzola, Auditor

   Pat Kennedy, Audit Manager

   Charles Zaepfel, Computer Specialist


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-02-22006.




Auxiliary Beneficiaries Without Their Own SSNs (A-01-02-22006)
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                  Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
